No. 20-

Jn tfJt &uprmtt (!lnurt 11f tfJt llnittb &tatts
AMERICAN MEDICAL ASSOCIATION, et al., Petitioners,

v.

ALEX M. AzAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF HEALTH AND HUMAN SERVICES, et al., Respondents.
NATIONAL FAMILY PLANNING & REPRODUCTIVE HEALTH ASSOCIATION, et al.,

Petitioners,

V.
ALEX M. AZAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF HEALTH AND HUMAN SERVICES, et al., Respondents.
ESSENTIAL ACCESS HEALTH, INC., et al., Petitioners,
V.

ALEX M. AzAR II, IN HIS OFFICIAL CAPACITY AS

SECRETARY OF HEALTH AND HUMAN SERVICES, et al., Res-pondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEAU; FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Paul R.Q. Wolfson, a member of the bar of this Court, hereby certify that, on
this 1st day of October, 2020, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

2¼~2!~
Counsel of Rec<Yrd

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(20'2) 663-6000
paul.wolfson@wilmerhale.com

SERVICE LIST
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
JAMES BURNHAM
JOSHUA DOS SANTOS
JAYNIE R. LILLEY
BRINTON LUCAS
HASHIM M. MOOPPAN
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
JOSHUA PATASHNIK
ANNA RICH
CALIFORNIA DEPARTMENT OF JUSTICE
455 Golden Gate Avenue
Suite 11000
San Francisco, CA 94102
(415) 510-3896
BENJAMIN N. GUTMAN
OREGON DEPARTMENT OF JUSTICE
1162 Court Street N.E.
Salem, OR 97301
(503) 378-4402

JUDITH VALE
NEW YORK STATE OFFICE
OF THE ATTORNEY GENERAL
23rd Floor
28 Liberty Street
New York, NY 10005
(212) 416-6274
JEFFREY T. SPRUNG
PAUL M. CRISALLI
KRISTIN BENESKI
AGWA - OFFICE OF THE WASHINGTON
ATTORNEY GENERAL (SEATTLE)
800 Fifth Avenue
Suite 2000
Seattle, WA 98104-3188
(206) 326-5492
NOAH G. PURCELL
AGWA - OFFICE OF THE WASHINGTON
ATTORNEY GENERAL (OLYMPIA)
P.O. Box 40100
1125 Washington St., SE
Olympia, WA 98504-0100
(360) 753-2536

